1 I f'A!, 'AIL ''-’OVIDCDTO
GO!.jJUB'i.
r-\ r
' !0.\!AL Bin^m

0i\

!

No.

PEPPlIlil

mmmL

IN THE
SUPREME COURT OF THE UNITED STATES

JETHRO L. CLAIRVOYANT,
Petitioner,
MARK INCH (FLDOC),
Respondent.

FILED
JUL 0 6 2020
OFFICE OF THE CLERK
SUPREME COURT IIS

PETITION FOR WRIT OF CERTIORARI TO
ELEVENTH CIRCUIT COURT OF APPEALS

Jethro L. Clairvoyant
DC# W14085
Columbia Correctional Institution
216 S.E. Corrections Way
Lake City, FL 32025

QUESTIONS PRESENTED
1. WHETHER PETITIONER WAS DENIED DUE
PROCESS AND EQUAL PROTECTION OF THE
LAW BY THE STATE COURT'S REFUSAL TO
RESERVE THE CONVICTIONS FROM THE STATE
COURT'S ERRONEOUS JURY INSTRUCTIONS.
WHERE
OTHER
SIMILARLY
SITUATED
DEFENDANTS WERE GRANTED REVERSALS?

2. WHETHER PETITIONER IS ENTIITLED TO THE
HOLDING IN MARTINEZ V. RYAN, 566 U.S. 1
(2012), WHEN HE RAISES A SUFFICIENT CLAIM
OF DEPRIVATION OF EFFECTIVE COUNSEL WHO
FAILED TO OBJECT TO THE PROSECUTOR
MISSTATING THE LAW?

i

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

11

TABLE OF CONTENTS .

111

TABLE OF AUTHORITIES

IV

PRAYER

1

OPINIONS BELOW

1

JURISDICTION

1

.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

.

.

2
2

REASONS FOR GRANTING THE WRIT

4

CONCLUSION

9

INDEX TO APPENDICES
APPENDIX A
The opinion of the Eleventh Circuit Court of appeals is not
yet reported and is attached as Appendix A (Attached
order).
APPENDIX B
The United States District Court for the Southern
District of Florida affirmed by the Eleventh Circuit Court
of Appeals was without opinion (order attached, and
Magistrate's Report and Recommendation Appendix B).
APPENDIX C
The opinion of the Florida Court of Appeals is reported at
92 So.3d 839 (Fla. 4th DCA 2012), (order attached).

iii

TABLE OF AUTHORITIES
Cases
Baldwin v. Blackburn, 653 F. 2d 942 (5th Cir. 1981) .

7

Bradley v. Gladden, 403 F. 2d 858 (9th Cir. 1968)

7

Cupp v. Naughten, 414 U.S. 141 (1973)

4

Dorsey v. State, 149 So. 3d 144 (Fla. 4th DCA 2014) .

7

Eady v. State, 2017 Fla. App. LEXIS 14872 .

7

Hick v. Oklahoma, 447 U.S 343 (1980).

7

Hill v. State, 43 So. 3d 981 (Fla. 4th DCA 2014)

7

Jones v. Russell, 299 F. Supp 970 (E.D. Tenn. 1968).

7

Audujar-Ruiz v. State, 205 So. 3d 1167 (Fla.2nd DCA 2016)

6

Martinez v. Ryan, 566 566 U.S. 1 (2012)

8

Rios v. State, 143 So. 3d 1167 (Fla. 4DCA 2014)

.

7

United States v. Jackson, 432 U.S. At 211

6

Zemina v. Solemn, 573 F. 2d 1027 8th Cir (1978)

6

Statutes
Florida Statutes 776.012(1) and 776.013(3)(2010)

iv

PRAYER
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
and opinion of the United States Court of Appeals for the Eleventh Circuit in this case.
OPINIONS BELOW
The opinion of the Eleventh Circuit Court of Appeals is not yet reported (order is
attached as Appendix A.) The United States District Court for the Southern District of
Florida affirmed by the Eleventh Circuit Court of Appeals was without opinion (order
attached, and Magistrate's Report and Recommendation Appendix B). The opinion of the
Florida Court of Appeals is reported at 92 So.3d 839 (Fla. 4th DCA 2012) (order denial
attached) (Appendix C).
JURISDICTION
The judgement of the United States Court of Appeal for the Eleventh Circuit was
entered on February 14, 2020. This Petition for Certiorari is filed within 150 days of that
date according to (589 U.S. ORDER LIST) See Rule 13.3. The jurisdiction of this Court
invoked under 28 U.S.C. § 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution provides in pertinent part
as follows:
In all criminal prosecution, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the state and district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory process for obtaining witness in his
favor; and to have the assistance of counsel for his defense.
The Fourteenth Amendment to the United States Constitution provides in
pertinent part as follows:
Section 1 ... No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of laws.
STATEMENT OF THE CASE
Petitioner Jethro L. Clairvoyant was found guilty of trafficking in cocaine, five
counts of aggravated assault (a lesser included offense of attempted second degree
murder), and five counts of aggravated assault on a law enforcement officer with a deadly
weapon. The state dismissed the aggravated assault (non-law enforcement) charges. The
Court adjudicated Petitioner guilty and sentenced him to 20-years' imprisonment with a
mandatory seven-years minimum for the drug charge and consecutive six-year terms on
four of five of the aggravated assault on a law enforcement officer charges, the fifth
charge was ten-years.
2

Direct Appeal
Petitioner appealed arguing that (1) the trial court failed to properly instruct the
jury. The appellate court affirmed Petitioner's conviction. Clairvoyant v. State, 92 So.3d
839 (Fla. 4th DCA 2012) (table) the court denied his motion for clarification and written
opinion.
First Rule 3.850 Motion
Petitioner filed a motion for post-conviction relief pursuant to Fla. R. Crim. P.
3.850 raising six claims for relief. The trial court denied the motion without an
evidentiary hearing by adopting the State’s response. The appellate court affirmed the
denial of the motion. Clairvoyant v. State, 151 So.3d 1261 (Fla. 4th DCA 2014) (table)
Second Appellate Habeas Corpus Petition
Petitioner then filed a second petition for writ of habeas corpus in the appellate
court. He contended appellate counsel had failed to argue that the trial court committed
fundamental error by failing to instruct the jury under the correct justifiable use of force
statute. The appellate court summarily denied the petition.
Second Rule 3.850 motion
Petitioner filed a second Rule 3.850 motion. This motion alleged that newly
discovered evidence had led petitioner to Brady and Giglio violations by the State. He
later filed an amendment to this second Rule 3.850 motion adding a claim of trial court
error in the jury instructions. The court denied both. The denial of the motions was
affirmed. Clairvoyant v. State, 190 So.3d 83 (Fla. 4th DCA 2016) (table).

3

REASONS FOR GRANTING THE PETITION
A. Petitioner was denied Due Process and Equal Protection of the Law by the State
Court’s jury instruction misstating the law effectively depriving Petitioner his
fundamental rights to a fair trial. See, Cupp v. Naughten, 414 U.S. 141 (1973).
B. Petitioner was denied his right to effective assistance of counsel as guaranteed
under the 6th and 14th Amendments to the U.S. Constitution when counsel failed to object
to the prosecutor misstating the law.

4

A. PETITIONER'S STATE JURY INSTRUCTIONS ARE
IN VIOLATION OF DUE PROCESS AND EQUAL
PROTECTION OF THE LAW GUARANTEED BY THE
FOURTEENTH
AMENDMENT.
SEE,
CUPP
V.
NAUGHTEN, 414 U.S. 141 (1973)
Factually this case is straight forward. Petitioner's
appellate counsel raised this issue on direct appeal. There he
argued fundamental reversible error in the jury instructions.
The court denied without opinion. Thus, this issue is fully
preserved in state courts and none of them answered the
federal question.
Specifically, the state court instructed the jury under
776.013(3) Florida Statute (2010) as follows:
“If the Defendant was not engaged in an unlawful
activity and was attacked in any place he had the right to be,
he had no duty to retreat and has the right to stand his ground
and may meet force with force, including deadly force, if he
reasonably believes it was necessary to prevent the commission
of aggravated assault as I previously defined that term.”
(Trial Transcript at 844)
Next, the state court instructed the jury that the
presumption of reasonable fear of death or great bodily harm
does not apply if:
“The person who used defensive force is engaged in
unlawful activity is using the occupied vehicle to further
unlawful activity.”
(Trial Transcript 885)
The nail in the coffin came during arguments in closing
by the prosecutor who stated:
“The presumption of reasonable fear of imminent death
or great bodily harm does not apply if the person if the person
who uses defensive force is engaged in an unlawful activity. He
was trafficking cocaine, so it does not apply. I would submit to
you that this instruction he's not entitled to that defense.”
(Trial Transcript 834)
Petitioner contends the state court instruction stated he
had a duty to retreat if he was engaged in unlawful activity
5

was a misstatement of the law, because section 776.012(1) Fla
Stat. (2010) held:
“a Defendant has no duty to retreat regardless of
whether he was engaged in unlawful activity.”
All five of Florida District Court of Appeals universally
agree on that point of law and put to rest any dispute about
sections 776.012(1) and 776.013(3) Fla. Stat. (2010). See e.g.,
Andujar -Ruiz v. State, 205 So.3d 803, 807-07 (Fla. 2nd DCA
2016), that holds in pertinent part:
“[BJecause [Appellant] was entitled to raise a defense
under sections 776.012(1), the trial court's instruction that he
had a duty to retreat if he was engaged in unlawful activity
effectively deprived [Appellant] of his sole defense and
constituted fundamental error.”
As such, Petitioner now reaffirms that the State court's
instructions under 776.013(3)(2010) and presumption of
reasonable fear of death or great bodily harm coupled with the
prosecutor's argument in closing negated his sole defense.
Reasonable fear contributed greatly to the Petitioner. He
felt his life was in imminent danger and had to flee to protect
it.

Given the evidence presented at trial, it was prejudicial
to give the 776.013(3)(2010) jury instruction which included a
duty to retreat if the defendant was engaged in an unlawful
activity because the circumstances involved Petitioner
trafficking cocaine. By the prosecutor highlighting in their
argument in closing that Petitioner's defense of justifiable use
of force was inapplicable because he was engaged in the
unlawful activity of trafficking in cocaine at the time he
defended himself, has coupled with the state court's instruction
(i.e. duty to retreat and presumption of reasonable fear of
imminent death or great bodily harm), and relieved the
prosecution of proving beyond a reasonable doubt every
element of the charged criminal offense in violation of the Due
Process Clause.
Petitioner avers the state court's jury instruction must
adequately explain the government's burden to prove the
defendant was not acting in self-defense. See, United States v.
6

Jackson, supra note 15, 432 U.S. At 211. If the defendant has
presented sufficient evidence to raise the issue of self-defense,
the court's failure to properly instruct the jury on the issue of
self-defense will seldom be considered “harmless error.” See
Zemina v. Solem, 438 F. Supp. 455 (D.S.D 1977), affd on other
grds., 573 F. 2d 1027 (8th Cir. 1978) (erroneous jury
instructions on self-defense entitled defendant to a new trial.)
An inadequate or improper jury instruction in this regard
generally warrants reversal of a conviction.
Now, Petitioner contends the 11th Circuit Court of
Appeals upholding the district court's findings are contrary to
established federal law from the Eighth Circuit Court in
Zemina, supra. Thus, Petitioner should be entitled to relief.
EQUAL PROTECTION VIOLATION
In sum, Petitioner contends if a state court system
arbitrarily withholds the benefit of a state rule of law from a
criminal defendant, due process of law is denied. If a state
court system treats similarly situated criminal defendants
differently, equal protection of law is denied. U.S. Const.,
Amend XIV, Hicks v. Oklahoma 447 U.S. 343, 100 S. Ct. 2227,
65 L. ed 2d 175 (1980), Jones v. Russell, 299 F. Supp 970 (E.D.
Tenn. 1968); Bradley v. Gladden, 403 F. 2d 858 (9th Cir. 1968);
Baldwin v. Blackburn, 653 F. 2d 942 (5th Cir. 1981).
Florida's Statute 776.012(1) (2010) has applied to several
other movants cases like: Dorsey v. State, 149 So.3d 144 (Fla.
4th DCA 2014); Rios v. State, 143 So.3d 1167 (Fla. 4th DCA
2014); Hill v. State, 43 So.3d 981 (Fla. 4th DCA 2014); and Eady
v. State, 2017 Fla. App. LEXIS 14872. All of the above cases
differ factually, but the principle of law remains the same.
Consequently, Petitioner must be entitled to the same relief.
B. PETITIONER WAS DENIED HIS RIGHT TO
EFFECTIVE
ASSISTENCE
OF
COUNSEL
AS
GUARANTEED
UNDER THE
6TH AND
14TH
AMENDMENTS
TO
THE
UNITED
STATES
CONSTITUTION WHEN COUNSEL FAILED TO OBJECT
TO THE PROSECUTOR MISSTATING THE LAW
The defense in this case was self-defense. The defense
was established when Petitioner testified that he fled the area
when a vehicle blocked his path and men with guns got out of
7

the vehicle and started his way. In support of his defense, the
jury was instructed on the defense of Justifiable Use of Deadly
Force. Under 776.013(3) (2010) the pertinent part of the
instruction reads that Petitioner is justified in the use of force:
“If the defendant was not engaged in an unlawful
activity, and was attacked in any place where he had a right to
be, he had no duty to retreat, and had the right to stand his
ground and meet force with force, including deadly force, if he
reasonably believed that it was necessary to do so, to prevent
death or great bodily harm to himself, or to prevent the
commission of an aggravated assault.”
In closing argument, the prosecutor misstated the law on
this instruction by telling the jury that Petitioner's defense of
Justifiable Use of force was inapplicable because he was
engaged in the unlawful activity of trafficking cocaine at the
time he defended himself (T-834). At the time of Petitioner's
trial, this was a misstatement of law. See, Florida Statute
776.012(1) (2010) that stated:
“a defendant had no duty to retreat
regardless of whether he was engaged
in unlawful activity.”
This misstatement of law effectively deprived Petitioner
of his sole defense offered at trial and should have led trial
counsel to object and have the jury properly instructed. As it
was, no objection was made, and the trial court instructed the
jury with the standard instruction that coupled with the
prosecutor's misstatement of law, obviously led the jury to
determine the defense was inapplicable due to Petitioner
having been engaged in unlawful activity of trafficking cocaine.
Trial counsel’s failure to object was deficient
performance that prejudice Petitioner by denying him his
substantive and procedural right to have the jury apply his
applicable defense to the facts of this case. Had it not been for
counsel's deficient performance, there exists a reasonable
probability the outcome of the proceedings would have been
different by the jury learning that the defense was applicable
to Petitioner, resulting in a acquittal.
Petitioner raised this issue for the first time on his Third
Amended federal habeas petition, based on the holding in
8

Martinez v. Ryan, 566 U.S. 1 (2012). The federal court adopted
the State's response and rejected this claim. The state argued it
was unexhausted, thus barred procedurally.
Petitioner now contends the specific findings by the
magistrate judge that the District Court Judge adopted, and
the Eleventh Circuit Court of Appeals denied the COA on, was
incorrect, and contrary to Martinez v. Ryan 566 U.S. 1, 17 566
U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 272, 288 that held, “a
procedural default will not bar a federal habeas court from
hearing a substantial claim of ineffective assistance at trial if,
in the [State] initial review collateral proceeding there was no
counsel or counsel in that proceeding was ineffective.
This finding by the district court squarely conflicts with
the Supreme Court's holding in Martinez.
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,

{J/zAr r4.

9

